No. 19-177

Bu The
Supreme Court of the United States

 

UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT, ET AL.,

Petitioners,
Vv.
ALLIANCE FOR OPEN SOCIETY
INTERNATIONAL, INC., ET AL.,
Respondents.

 

On Writ of Certiorari to the United States
Court of Appeals for the Second Circuit

AMICUS BRIEF OF THE AMERICAN CENTER FOR LAW AND
JUSTICE IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE WITH WORD LIMITATIONS

Walter M. Weber, a member of the Bar of this Court and an attorney for amicus, pursuant to
Rule 33.1(h), hereby certifies that the Amicus Brief of the American Center for Law and Justice
in Support of Petitioners complies with the pertinent word limitations. The body of the
document, including footnotes (but exclusive of all material preceding the Interest of Amicus and
all material following the last word of the text of the conclusion), contains 4,791 words.

 
  

    

LAME
Walter M. Weber

 

February 3, 2020
